OFFICE OF INSPECTOR GENERAL

AUDIT OF USAID/INDONESIA’S
STRENGTHENING INTEGRITY
AND ACCOUNTABILITY
PROGRAM I

AUDIT REPORT NO. 5-497-14-006-P
SEPTEMBER 12, 2014




MANILA, PHILIPPINES
Office of Inspector General


September 12, 2014

MEMORANDUM

TO:                  Acting USAID/Indonesia Mission Director, Derrick Brown

FROM:                Acting Regional Inspector General/Manila, Steven Ramonas /s/

SUBJECT:             Audit of USAID/Indonesia’s Strengthening Integrity and Accountability Program I
                     (Report No. 5-497-14-006-P)

This memorandum transmits our final report on the subject audit. We have considered carefully
your comments on the draft report and included them in Appendix II. The report includes
five recommendations to help the mission address problems found in our audit of the
Strengthening Integrity and Accountability Program I.

The mission agreed to take action on Recommendation 3 through 5 and disagreed with
Recommendations 1 and 2. We conclude that management decisions have been reached on
Recommendations 1, 2, 3, and 5. Final action has been taken on Recommendations 1 and 2.
We disagree with the mission’s decisions on Recommendations 1 and 2, and explain why in our
evaluation of management comments.

Please provide the Audit Performance and Compliance Division of USAID’s Office of the Chief
Financial Officer with documentation of final action on the remaining recommendations when
available.

Thank you and your staff for the cooperation and courtesies extended to us during this audit.




U.S. Agency for International Development
Annex 2 Building
U.S. Embassy
1201 Roxas Boulevard
1000 Ermita, Manila, Philippines
http://oig.usaid.gov
CONTENTS
Summary of Results ................................................................................................................. 1

Audit Findings ........................................................................................................................... 4

     Demand-driven Focus Hampered Performance Management ............................................... 4

     Lack of Host-government Support Prevented Implementation
     of Fraud Control System ....................................................................................................... 5

     Program’s Sustainability Is Questionable .............................................................................. 7

Evaluation of Management Comments.................................................................................... 9

Appendix I—Scope and Methodology ................................................................................... 11

Appendix II—Management Comments .................................................................................. 13

Appendix III—Indicator Results Versus Targets .................................................................. 20




Abbreviations

The following abbreviations appear in this report:

BPK             Badan Pemeriksa Keuangan
FCS             fraud control system
KPK             Komisi Pemberantasan Korupsi
MOU             memorandum of understanding
MSI             Management Systems International
NGO             nongovernmental organization
PMP             performance management plan
SUMMARY OF RESULTS
According to USAID, Indonesia made a successful transition to democratic politics after the end
of the Suharto era in 1998. Yet weak rule of law, lack of transparency and accountability in
government, dysfunctional intergovernmental relations, and the strong role money plays in
politics continue to threaten that transition, as well as development and economic growth.

To help the Southeast Asian nation overcome these impediments, in January 2011
USAID/Indonesia awarded a 5-year, $13.6 million cooperative agreement to Management
Systems International (MSI) to implement the Strengthening Integrity and Accountability
Program I.1 USAID increased the award to $17.6 million in June 2013.

The program consists of two components:

1. Supporting key accountability agencies—such as and Badan Pemeriksa Keuangan (BPK),
   Indonesia’s supreme audit institution and Komisi Pemberantasan Korupsi (KPK) (Corruption
   Eradication Commission)—in their efforts to strengthen integrity and accountability2 in
   government

2. Bolstering political accountability by supporting efforts to curb the use of money by various
   political parties to win votes.

Some 69 percent of the program budget went to support for BPK and KPK. As of
December 2013, USAID/Indonesia had obligated $9.5 million and disbursed $7.9 million for the
program.

The Regional Inspector General (RIG)/Manila conducted this audit to determine whether
USAID/Indonesia’s Strengthening Integrity and Accountability Program I was achieving its main
goal of contributing to democratic governance and economic growth by strengthening the
integrity and accountability of government agencies. The audit concluded that it was.

For example, it provided beneficiary agencies with various forms of technical assistance. The
Indonesian Government’s 2011-2015 plans for BPK and KPK called for building the professional
capacity of their employees. To support the plans, the program provided training courses and
assessments, which included audits and studies. In September 2013 former executives from the
U.S. Government Accountability Office taught a course on performance auditing to 83 BPK
auditors. The program also provided certified fraud examiner preparation to 35 BPK employees
in 2012 and 16 KPK employees in 2013.

KPK and BPK’s plans prioritized communications to build awareness and maintain public
support. At the request of KPK, the program produced “Kita vs. Korupsi” (Us vs. Corruption), a
group of four short films that targeted urban youth. About 515,000 people saw the film in

1
  Cooperative Agreement No. AID-497-A-II-0000, signed January 28, 2011.
2
   The program defines integrity as a “set of laws, procedures, incentives and norms that create an
environment that discourages corruption and malfeasance and rewards lawfulness and professionalism.”
It defines accountability as a relationship in which citizens, politicians, and government officials have the
power to oversee other politicians and government officials, and have the ability to impose consequences
for wrongdoing.


                                                                                                           1
theaters and online by the end of 2012. The program uploaded the film to YouTube, as shown in
the screenshots below.

                          Screenshots of “Kita vs. Korupsi” on YouTube




    These short films present instances of corruption that occur in everyday life. (Screenshots
    taken by RIG/Manila, June 26, 2014 and September 9, 2014)

However, the audit found that the program missed several performance targets during the first
3 years, which could diminish its impact. This happened because of problems with how USAID
and MSI managed the program.

    The program’s demand-driven focus hampered performance management (page 4).

    Lack of host-government support prevented implementation of a fraud control system (FCS)3
     at BPK (page 5).

    Sustainability is questionable because the program was not tracking it or addressing a key
     obstacle to achieving it (page 7).

Because the mission is not considering a follow-on program, we have five recommendations to
expand and sustain the current program’s efforts.



3
  A fraud control system is a set of policies and procedures designed to prevent, detect, and investigate
fraud at every level of an organization. A system could include a fraud risk profile to help allocate
resources to areas that pose the greatest risk, an organizational culture that combats fraud, and a way to
report wrongdoing that protects whistleblowers.



                                                                                                        2
1. Conduct a comprehensive review of the program’s strategy, and use the results of the
   review to align objectives and performance targets with activities (page 5).

2. Obtain a written commitment to implement an activity, signed by the highest decision-
   making authority in a beneficiary organization, before approving and funding it (page 7).

3. Require MSI to report on sustainability in all remaining program annual reports. The final
   report should ex plain which results are sustainable and why (page 8).

4. Report on sustainability in all remaining portfolio reviews of the program (page 8).

5. Conduct a final evaluation that focuses on sustainability (page 8).

Detailed findings appear in the following section. Appendix I contains information on the scope
and methodology. OIG’s evaluation of management comments is included after the audit
findings, and the full text of management comments is in Appendix II. A table of the program’s
indicator results for the first 3 years is in Appendix III.




                                                                                             3
AUDIT FINDINGS
Demand-driven Focus Hampered
Performance Management
USAID’s Automated Directives System (ADS) 203.3.9, “Setting Performance Baselines and
Targets,” states that targets should be ambitious, but achievable. Moreover, the mission should
maintain the performance management plan (PMP) so that indicator reference sheets reflect
changes to indicators and targets. As explained in ADS 203.3.2, “Performance Monitoring,”
comparing targets to actual results is critical to determine whether a program is achieving its
objectives and whether the objectives need to be changed.

In describing the approach of Strengthening Integrity and Accountability Program I, the chief of
party said it was “demand-driven.” A USAID official said the mission made concerted efforts to
tailor the program’s activities to the needs and priorities of the Indonesian agencies. For
example, in June 2013 USAID approved $2 million in additional funding for various program
activities the government requested. These included training in basic skills for 300 KPK
investigators and developing a “mystery shopper” to monitor the quality of government services
to the public.

During the third year, the program tracked performance with 13 indicators and impact with
2 (Appendix III). The performance indicators tracked results from training, assessments, and
public outreach. However, after 3 years, the program missed targets for three of six output
indicators and five of seven intermediate result indicators.4 The program also did not reach the
midpoint target for the two impact indicators.

Due to the demand-driven focus, the program did report outperforming targets in training
activities, but fell short of other performance targets. It trained 2,077 people from government
agencies in 3 years, which was 519 percent of the target, and 1,333 people from
nongovernmental organizations (NGOs), exceeding the 3-year target by 78 percent.

In terms of performance, support for KPK was the largest subcomponent of the program, but
intermediate results for assessments (Number of recommendations to improve capacity of KPK
adopted by leadership) fell short of the 3-year target of 30 by 23 percent. Activities in support of
the Office of the Ombudsman, Central Information Commission, and Ministry for Bureaucratic
Reform had mixed results: while the program met the target for training people at the agencies,
the training did not lead to the expected outcome (measured by Number of complaints resolved
with niche anticorruption agencies), which missed the target of 4,879 by 24 percent.

Finally, with 2 years left, the program is falling short of targets for impact, as measured by
scores for Corruption Perception and National Integrity indexes, although both showed gradual
improvement since the program began.

According to a mission official and mission records, the program had difficulty adhering to work
plans because accommodating the agencies’ requests and changes affected scheduling and

4
 According to ADS 200.3.5.3, “Results Framework,” intermediate results are results that are sufficient to
achieve development objectives and serve as the basis for programs. Intermediate results indicators are
performance indicators used to assess the outcomes of program activities.


                                                                                                       4
recruiting consultants. Moreover, the official said an ambitious program might have taxed MSI’s
ability to deliver all activities as planned.

In the third year, USAID and MSI acknowledged the problems that came from the demand-
driven focus. The mission’s fiscal year 2014 portfolio review said USAID/Indonesia’s approach
to program management made it difficult to make long-term plans due to government
beneficiaries changing plans at the last minute about content or schedule dates. MSI stated in
the Year 3 work plan that “while all of the [activities] were beneficiary-driven and valuable, [the
program] believes that such a proliferation of programming is not optimal.”

USAID’s focus on responding to requests for activities, such as specific trainings, from the
Indonesian Government was rooted in the politic climate: a mission official said the government
wanted to demonstrate to the world that it had made progress in combatting corruption. The
country was receiving increased attention in this area because of the July 2014 presidential
elections and its membership in the steering committee of the Open Government Partnership,
an initiative led by governments and civil society organizations to fight corruption and improve
transparency.

During the first 3 years, USAID and MSI struggled to find the right balance between being
responsive and executing a strategy. The program’s widely varying results illustrates this
challenge. As a result, USAID is left without a reliable means of evaluating performance and the
program’s official results may not reflect the accomplishments.

To address this issue, we make the following recommendation.

    Recommendation 1. We recommend that USAID/Indonesia conduct a comprehensive
    review of the strategy for the Strengthening Integrity and Accountability Program I, and
    use the results of the review to align objectives and performance targets with activities.

Lack of Host-government Support
Prevented Implementation of Fraud
Control System
During the program’s first year, MSI made implementation of FCS at BPK a key component.
The first year was spent designing the system, and the second year was spent testing it and
training employees to use it, in keeping with the goal of eventually expanding FCS to the rest of
the agency’s 68 units5 throughout the country. In May 2011 MSI added an indicator to the PMP
to track implementation and then added three more in April 2012.

A group of senior managers at BPK had asked MSI for support in designing and implementing
FCS at the agency. The idea came from the Australian National Audit Office, which had an on-
site adviser at BPK. The managers said they had two goals for the system: (1) to serve as a
model of best practices for other government agencies, and (2) to improve BPK’s performance
audit capability.

The key milestone in the first year was completing the draft of an implementation manual, which
the BPK vice chairman presented to the board of directors in October 2011. Anticipating the

5
  Even though the 3-year target was to implement in 17 units (as shown in Table 1), the program goal was
to implement FCS within the agency’s 68 units.


                                                                                                      5
board’s approval, MSI tested the FCS at two sites in 2012 and also trained employees from
BPK units throughout Indonesia on how to implement the system and presented more training
courses than planned by the end of the year.

BPK’s board, however, did not approve the FCS. The BPK managers with whom MSI had
planned the system did not want to proceed without the board’s blessing. So MSI revised its
work plan halfway into Year 2 and pursued a piecemeal approach that focused on parts of the
system, accompanied by more training courses and another assessment.

By Year 3, full implementation was no longer in the annual work plan, yet MSI made more edits
to the manual and trained an additional 68 BPK employees.

The 3-year results for indicators tracking the implementation of the system summarize this
outcome, as shown in the table below.

               Table 1. Indicator Results Versus Targets, 2011-2013 (audited)

                                                                 3-Year Cumulative   Variance
  Indicator                                      3-Year Target
                                                                 Result              (percent)

  Training activities on the BPK fraud control
  system conducted with support from [the             15                26                73
  program]

  Reported allegations of fraud received by
                                                      34                 2               (94)
  BPK inspectorate

  BPK units implementing the Fraud Control
                                                      17                 2               (88)
  System


The primary reason that BPK did not implement FCS was because the agency’s board of
directors did not support it. The reason was unknown, and in any event, not within USAID’s
control. The program did not identify the issue with the board before planning FCS because the
program did not establish a memorandum of understanding (MOU) for FCS and was unclear on
who had the authority to implement the system.

No MOU. The chief of party said the program did not undertake activities without a previous
agreement. However, the agreements were not always in writing or signed by the highest level
of management in the organization. For example, KPK and the Central Information Commission
signed an agreement with the program, but the Ombudsman’s Office did not. A mission official
explained that an MOU is symbolically important, even if not legally binding. As a result, the
mission was receiving so many requests for MOUs that it gave the chief of party the authority to
sign them on behalf of the program

Unclear authority. The managers at BPK were not expecting the board to turn down FCS.
They believed they had the authority to implement it because operations fell under their
jurisdiction. They explained that the board’s reaction to FCS showed them that the division of
authority between them as senior managers (career civil servants) and the board (politicians
representing the political parties) was “not supported by a legal framework.”




                                                                                                 6
Because the system probably will not be implemented as planned, it is no longer a goal of the
program. In February 2014 MSI submitted a new PMP6 to USAID that included 5-year program
targets, but did not include the two intermediate result indicators for FCS.

Program funds spent on developing the manual and training 340 BPK personnel on FCS
implementation may be lost7 because MSI did not require BPK’s board of directors to sign an
MOU to implement the system, which would have alerted MSI that political support for the
initiative was both necessary and lacking. Some activities, such as creation of a whistleblower
program, may help BPK eventually. The other goal for the system—to enable BPK to serve as a
role model for other agencies—cannot be achieved unless all components of FCS are
implemented.

To reduce the likelihood of a similar occurrence in another area of the program during its
remaining 2 years, improve the chances of achieving program goals, and strengthen the
stewardship of public funds, we make the following recommendation.

    Recommendation 2. We recommend that USAID/Indonesia obtain a written
    commitment signed by the highest decision-making authority in a beneficiary
    organization to implement an activity before approving and funding it under the
    Strengthening Integrity and Accountability Program I.

Program’s Sustainability
Is Questionable
Several components comprise the Strengthening Integrity and Accountability Program I’s
sustainability strategy, including training-of-trainers and working with reform “champions” within
the beneficiary organizations. By working with internal champions, the program promotes and
instills local ownership of activities, increasing the likelihood of sustainability. The cooperative
agreement also required cost share of $650,000 over 5 years. USAID officials said the cost-
share’s purpose was to promote support and sustainability.

USAID and other international donors have said the primary constraint to development in
Indonesia is lack of expertise to manage financial and human resources well rather than lack of
funds. For anticorruption agencies, another constraint is politics. Ostensibly well-funded
agencies like KPK and BPK still rely on donors to finance their training and public outreach
because their budgets are controlled by Parliament, whose members can be subjects of
corruption investigations. MSI reported that KPK’s budget for outreach was cut in 2013.

The audit found that the program worked with reform champions on many activities and used
training-of-trainer methodology in some training. For example, the commissioners at the Central
Information Commission trained in mediation and adjudication were expected to train their
successors. Another example was a corruption trial monitoring activity in 2011 that KPK is now
continuing without program support.

On the other hand, these approaches were not consistent. The program supported a
preparation course for 16 KPK investigators who passed the certified fraud examiner test in

6
 USAID had not yet approved the new PMP at the time of the audit.
7
  The audit could not verify the amount spent on these activities because the program does not track
costs at the activity level, only at the subcomponent level.


                                                                                                  7
2013. A KPK official said various donors had been supporting the course that consultants led for
KPK since 2006 because the training-of-trainer approach was not used.

The program’s overall sustainability is questionable for two reasons. First, it was not addressing
the political obstacles that prevent BPK and KPK from paying for their own training and public
outreach. Although the agencies receive financial support from various international donors for
training, two donors we interviewed said they do not pay for certain types of outreach activities
that the program does, like film production.

Second, the program did not have ways to measure sustainability for many training,
assessment, and outreach activities, as listed below.

   While training-of-trainer is a key element of MSI’s sustainability strategy, the program had no
    indicators for it.

   The program used recommendations implemented to track increased capacity at the
    recipient organization, which would indicate some degree of sustainability. However, it
    tracked this at only one agency, KPK.

   The program stopped tracking Number of U.S. government-supported anti-corruption
    measures implemented at the end of the second year.

   The program stopped tracking public awareness resulting from outreach activities after the
    first year.

In addition, MSI’s annual reports and USAID’s portfolio reviews did not mention progress toward
sustainability, even though mission officials said it was a priority.

MSI reported on cost share, as required, but did not link it to the sustainability strategy.
Moreover, even as USAID’s funding increased 29 percent from $13.6 million at inception to
$17.6 million in June 2013, the total cost share remained static at $650,000, 3.6 percent of the
increased award amount.

Not making sustainability a priority in the program’s last 2 years risks the progress and
momentum it has created. Because the program is past its midpoint, adding new indicators
would not be worthwhile. However, since USAID did not conduct a midterm evaluation, it should
consider conducting a final evaluation that focuses on sustainability. To increase the chances of
sustaining the program’s efforts, we make the following recommendations.

    Recommendation 3. We recommend that USAID/Indonesia require Management
    Systems International to report on sustainability in all remaining annual reports of the
    Strengthening Integrity and Accountability Program I. In addition, USAID/Indonesia
    should instruct Management Systems International in writing to identify in the program’s
    final report which results are sustainable and why.

    Recommendation 4. We recommend that USAID/Indonesia report on sustainability in
    remaining portfolio reviews of the Strengthening Integrity and Accountability Program I.

    Recommendation 5. We recommend that USAID/Indonesia conduct a final evaluation,
    focusing on sustainability, of the Strengthening Integrity and Accountability Program I.



                                                                                                 8
EVALUATION OF MANAGEMENT
COMMENTS
USAID/Indonesia agreed with Recommendation 3 through 5 and disagreed with
Recommendations 1 and 2. We acknowledge management decisions on Recommendations 1,
2, 3, and 5. Our evaluation of management comments follows.

Recommendation 1. The mission disagreed with the recommendation to conduct a
comprehensive review of the program strategy and use the results to align objectives and
performance targets with activities. It did not propose to take any action to address the
recommendation.

While we acknowledge that the mission has reached a management decision and taken final
action, we disagree with the decision. The recommended action would ensure that the
program’s performance targets reflected what it was truly trying to achieve. For example,
one action that would support the recommendation would be to increase the targets for training.
The Year 4 draft PMP that MSI submitted to USAID in February 2014 had 5-year targets for
two training indicators that were lower than the cumulative results for the first 3 years.

Recommendation 2. The mission disagreed with the recommendation to require written
commitments from beneficiaries to implement an activity before approving and funding it. The
mission did not propose an alternative action.

While we acknowledge that the mission has reached a management decision and taken final
action, we disagree with the decision. The mission contended that requiring beneficiaries to sign
an MOU was impractical and would impose constraints on the program’s ability to complete
activities on time. While we understand the concern for activities already approved or ongoing,
we do not agree that obtaining an MOU would limit flexibility. An MOU is a symbolic document
that does not imply a legal commitment, yet it expresses agreement between parties and allows
a great deal of latitude in its design.

Recommendation 3. The mission agreed to require MSI to address sustainability in the
program’s final report. However, the mission pointed out that the final report would not be
completed within 1 year of the audit report’s issuance. For this reason, we amended the report
to recommend that USAID/Indonesia instruct MSI in writing to address sustainability in the final
report. The mission has already stated it plans to do this with a target date for completion of
September 30, 2015. We acknowledge that the mission has reached a management decision.

Recommendation 4. The mission said that the program expects to achieve higher-level results
only if the reforms the mission supports are sustained by demand from the Indonesian public
and resources from its government. The mission described a series of planned actions and set
a target date for completion of September 30, 2015. However, the mission did not say what
steps it plans to take to report on sustainability as part of the program’s remaining portfolio
reviews. Therefore, the mission has not reached a management decision.

Recommendation 5. The mission said it approved a peer review evaluation of Indonesia’s
efforts to promote open, accountable governance. The mission said this would be carried out by



                                                                                               9
Organization for Economic Cooperation and Development and would begin by the end of the
fiscal year; it will include most program-supported activities and address sustainability. The
target date for completion is September 30, 2015. We acknowledge that the mission has
reached a management decision.




                                                                                           10
                                                                                      Appendix I



SCOPE AND METHODOLOGY
Scope
RIG/Manila conducted this audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions in
accordance with our audit objective. We believe that the evidence obtained provides that
reasonable basis.

The objective of the audit was to determine whether USAID/Indonesia’s Strengthening Integrity
and Accountability Program I was achieving its main goal of contributing to democratic
governance and economic growth by strengthening the integrity and accountability in
government agencies. USAID/Indonesia had obligated approximately $9.5 million and disbursed
$7.9 million under the program, as of December 31, 2013.

The audit examined activities carried out under the first of two components, to which the
program allocated $15.2 million, 89 percent of the Agency’s total contribution over 5 years
(excluding cost share). Under Component 1 the program supported BPK, KPK, and other
Indonesian Government agencies with training, assessments, and public outreach. The audit
also reviewed cost share, which represented 3.6 percent of the total estimated cost of
$17.6 million.

The audit team interviewed or obtained supporting documentation from officials representing
USAID/Indonesia, MSI, four beneficiary agencies, an NGO subgrantee, and two other
international donors.

We conducted audit fieldwork from February 24 to March 20, 2014. The audit covered activities
carried out during the first 3 years of the program, from January 2011 through January 2014.
Discussions took place in Jakarta.

In planning the audit, the team assessed the program’s internal controls, particularly for
monitoring and reporting. These included monitoring procedures, and quarterly progress and
site visit reports. Finally, we examined the mission’s fiscal year 2013 annual self-assessment of
management controls, which the mission was required to perform to comply with the Federal
Managers’ Financial Integrity Act of 1982.

Methodology
To answer the audit objective, we obtained an understanding of the program, PMP, and results
by examining documentation, including the cooperative agreement and modifications between
the mission and MSI, and annual work plans and performance reports. We examined
requirements in the cooperative agreement and subsequent modifications, and relevant
chapters of ADS. The audit team interviewed USAID/Indonesia officials from the mission
director’s office, Office of Financial Management, Office of Acquisition and Assistance, and the
Office of Democratic Governance.




                                                                                              11
                                                                                       Appendix I


We also interviewed officials from BPK, KPK, the Central Information Commission, and the
Office of the Ombudsman. A member of our team conducted a site visit to observe a training
course in progress for KPK investigators. We interviewed senior BPK officials who brought the
idea for FCS to MSI and helped plan and design it. We did not interview members of the BPK
board of directors or the vice chairman who acted as the liaison between MSI, BPK officials, and
the board during the planning and implementation of FCS.

To gain an understanding of the program’s operating environment and assess its strategy and
activities, we interviewed officials from two other international donors: the German Society for
International Cooperation, which was supporting KPK, and the Australian National Audit Office
(part of the Australian Department of Foreign Affairs and Trade), which was supporting BPK.

In assessing the status of the activities carried out under the agreement, we reviewed progress
reports covering the first 3 years (January 2011 through January 2014), supplemented by
interviews conducted with representatives from the mission, MSI, and beneficiary agencies. To
validate data for the activities, the auditors cross-referenced reported results against supporting
documentation, and then corroborated them in interviews. The audit team also reviewed
independent reports to verify impact indicator results. After verifying them, the team compared
progress reports to work plans, award documents, and strategy documents to see whether there
were any problems with implementation.

The team judgmentally selected 11 of 15 performance indicators to assess whether the program
was achieving its goals and to verify the reliability of the results reported in the PMP. We
selected indicators to obtain a mix of training, assessment, and public outreach activities. We
performed a judgmental selection because we did not need to project the results. Therefore, the
results of the performance indicator testing cannot be extrapolated to the entire universe of a
particular indicator or to the entire universe of indicators. We believe the selection provides a
reasonable basis for our conclusions.




                                                                                                12
                                                                                      Appendix II



MANAGEMENT COMMENTS



MEMORANDUM

TO:            Matthew Rathgeber
               Regional Inspector General/Manila

FROM:          Derrick S. Brown /s/
               Acting Mission Director, USAID/Indonesia

SUBJECT:       Audit of USAID/Indonesia’s Strengthening Integrity and Accountability I
               Program (SIAP-1) Report No. 5-497-XXX-P

DATE:          August 20, 2014


This memorandum conveys USAID/Indonesia’s management response to the above referenced
Office of Inspector General (OIG) audit report of the SIAP-1 program, implemented by
Management Systems International (MSI), dated July 18, 2014. The Mission thanks the OIG
audit team for its professionalism and the opportunity to use the program audit as a management
tool to improve program performance. USAID/Indonesia agrees with the audit report
conclusion that the SIAP-1 program is achieving its main goal of contributing to democratic
governance and economic growth by strengthening integrity and accountability of Indonesian
government agencies.

USAID/Indonesia’s specific comments and responses to the audit’s five recommendations are
provided below. In addition, since the audit team’s field work and exit briefing on March 20,
2014, USAID/Indonesia and MSI have taken several measures to address the findings
highlighted during the field work. These also are reflected below to suggest possible solutions to
challenges that we agree would result in improved program performance.

Recommendation 1: We recommend that USAID/Indonesia conduct a comprehensive review of
the strategy for the Strengthening Integrity and Accountability Program 1, and use the results of
the review to align objectives and performance targets with activities.

Mission Response: USAID/Indonesia does not agree with this recommendation. As this was a
performance audit, USAID/Indonesia expected the Regional Inspector General (OIG) team to
provide a more tailored review of how best to improve program effectiveness and efficiency


                                                                                               13
                                                                                        Appendix II


during remaining period of program implementation. Instead, the OIG redirects this
responsibility back to the Mission and concludes that it should conduct its own comprehensive
review of the program and realign it as appropriate.

The performance indicators demonstrate that the strategy is working. The OIG report finds that
after three years, the program “missed targets for 3 of 6 output indicators and 5 of 7 intermediate
results indicators …. and two impact indicators.” By using essentially a “pass/fail” assessment
of SIAP-1’s performance indicators at a mid-point review, the OIG has applied a rigid and
narrow methodological approach. Mission management believes that this results in an inaccurate
assessment of the program’s results. We believe that the following interpretation provides a
more accurate way of assessing the extent to which SIAP-1 achieved its performance targets,
based on the actual data in the OIG report (Appendix III). In our view, indicators that approach
or exceed the 100% threshold represent considerable success that is not recognized in the OIG
report.

Except for the performance indicators related to the Fraud Control System (8 and 9), SIAP-1
achieved considerable success in reaching its performance targets. SIAP-1 achieved at least 75
percent of its target goals for 13 of 15 performance indicators as shown in Table 1 below.

Table 1

              SIAP Achieved at Least 75% of Its Target
             Goals for 13 of 15 Performance Indicators
            13
            10
             7
             4
             1
                 0%   100%     200%     300%     400%     500%     600%     700%    800%
                  1    2   3   4   5   6   7   8   9  10 11 12 13 14 15
    Target Goals 75% 173%519%178% 86% 94% 77% 12% 6% 85% 100%158%725% 97% 98%



For several indicators, SIAP-1 only fell short of achieving 100% compliance because the
indicators suffer from a distortion created by relying on small units of measurement. A minor
change can produce wide variances in the results. For example, if SIAP-1 had helped draft ONE
more election law (indicator 5) and ONE more political finance recommendation (indicator 6), it
would have achieved a 100% target rather than the commendable if not perfect rates of 86 and 94
percent, respectively.

In addition, attributing the program’s minor problems to a “demand driven focus” is a cause
lacking any conditions or criteria and supporting an unsubstantiated bad effect. Based on the
data cited in the OIG report, the key audit finding would be more accurate as follows: The


                                                                                                 14
                                                                                          Appendix II


SIAP-1 program established ambitious but achievable performance targets (criteria) and
achieved at least 75% of these targets in 13 of 15 performance indicators (condition) at the
project’s mid-point. These achievements resulted (cause) from the program’s cooperative
working relationships with its key clients and focus on meeting the needs of the intended
beneficiaries. As a result (effect), the program has contributed to democratic governance and
economic growth by strengthening the integrity and accountability of Indonesian government
agencies. Finally, opportunities presented by a new government administration, which takes
office on October 20, 2014, will allow minor adjustments in activities through the final year
work plan to further enhance performance.

Recommendation 2: We recommend that USAID/Indonesia obtain a written commitment signed
by the highest decision-making authority in a beneficiary organization to implement an activity
before approving and funding it under the Strengthening Integrity and Accountability Program
1.

Mission Response: USAID/Indonesia does not agree with this recommendation. That said, the
Mission is pleased that the audit team focused on the Fraud Control System (FCS) based on an
appreciation of its importance, compared to the many other initiatives undertaken by SIAP-1
with the Indonesia’s supreme audit agency, BPK. The OIG report finds that the primary reason
that BPK did not completely implement the FCS was because BPK’s Board of Directors (Board)
did not support the initiative. The report contends this was due to the lack of a formal
Memorandum of Understanding (MOU) between SIAP-1 and BPK, as well as not having a clear
understanding of who had the authority to implement the system.

USAID/Indonesia agrees that the SIAP-1 program did not fully achieve two indicators related to
the implementation of a Fraud Control System within BPK. However, the lack of a signed MOU
between BPK and the SIAP-1 program does not explain the challenges surrounding the
implementation of the FCS. We also believe that use of a signed MOU does not represent a
flexible approach required for future project activities intended to sustain the program’s
accomplishments over its remaining two years.

SIAP-1 did receive support to develop and implement an FCS from two of BPK’s highest
ranking officials – the Board’s Vice Chair and the Chief of Staff. Prior to these endorsements,
the program undertook extensive outreach to understand BPK’s critical needs and align SIAP-1
funded activities to its strategic goals, objectives and priorities. The outreach was not static but
continuous as the SIAP-1 program matured and both BPK and SIAP- 1 adjusted their
engagement to take advantage of joint opportunities.

The reasons the Board did not accept the FCS full implementation are unclear – no USAID or
program representative attended the Board meeting where the nine politically appointed Board
members discussed full implementation of the FCS. Furthermore, to our knowledge, the audit
team did not discuss the Board’s decision with any BPK representatives. Specifically, the OIG
draft report’s methodology section states that “the OIG did not interview members of the BPK
board of directors or the vice chairman who acted as the liaison between MSI, BPK officials and
the board during the planning and implementation of FCS.”




                                                                                                   15
                                                                                       Appendix II


It is, thus, purely speculative for the OIG to conclude that the Board’s rejection of full FCS
implementation was caused by the lack of an MOU between the SIAP-1 program and BPK. In
fact, the lack of an MOU between SIAP-1 and BPK did not prevent the program from
successfully achieving its performance goals related to FCS training. The program trained 67
BPK units and 648 staff on the Fraud Control System – exceeding its performance targets.

Furthermore, based on USAID/Indonesia’s oversight and monitoring of this activity, when the
SIAP-1 program encountered challenges in implementing all 10 FCS components at once, it
appropriately adjusted its strategy. SIAP-1 and BPK are now focusing on implementing the risk
assessment component of the FCS, first, to develop a foundation for successful implementation
of the remaining components. Accordingly, key indicators for the FCS are being revised to
reflect the client’s changing needs and circumstances. SIAP- 1 continues to seek ways to ensure
FCS implementation. Specifically, three of BPK’s new Board members will participate in an
exchange visit to the United States in September 2014. At BPK’s suggestion, a key topic during
the exchange visit will be fraud control systems in the US. Furthermore ITAMA, BPK’s
Principle Auditorate (the equivalent of a U.S. Inspector General), has become more engaged on
fraud risk assessments, a key element in a FCS. Most importantly, ITAMA has agreed to
establish FCS as an umbrella program within BPK’s internal reform agenda.

USAID/Indonesia believes that the OIG’s recommendation for written commitments between the
SIAP-1 program and beneficiary organizations is not based on sufficient and appropriate
evidence. Furthermore, we are concerned that such an approach imposes a constraint on the
program’s efforts to complete activities with the program’s remaining time period. Mission
Management believes that introducing new requirements with established clients will expend
time and resources better spent on completing the established activities detailed in the December
2013 approved work plan for year 4 and the activities expected for 2015 that will continue or
complete current activities.

In those cases where it has been programmatically advantageous and workable, SIAP- 1 has
actively engaged its other Government of Indonesia (GOI) beneficiaries to sign MOUs.
However, implementing the OIG’s "MOU before programming" recommendation and making
further cooperation contingent on these agreements is inflexible and impractical, and should only
be considered on a case-by-case basis.

For Recommendations 3, 4 and 5, which are all related to sustainability, we believe they should
be combined into one recommendation. This would be much more efficient and eliminate
unnecessary duplication of efforts. We propose a single recommendation (i.e., a new
Recommendation 3) as follows: “ We recommend that USAID/Indonesia track sustainability
by: (a) requiring Management Systems International to report on sustainability in all remaining
annual reports of the Strengthening Integrity and Accountability Program 1; (b) reporting on
sustainability in remaining portfolio reviews of the Strengthening Integrity and Accountability
Program 1.” USAID’s specific responses to Recommendations 3, 4 and 5 are provided below.

Recommendation 3: We recommend that USAID/Indonesia require Management Systems
International to report on sustainability in all remaining annual reports of the Strengthening




                                                                                                 16
                                                                                       Appendix II


Integrity and Accountability Program 1. In addition, the final report should explain which
results are sustainable and why.

Mission Response: USAID/Indonesia agrees that annual reporting should reflect sustainability
prospects by identifying obstacles and recommended course of action to help ensure that results
achieved have an enduring quality to them. Since the final report on SIAP-1 is likely to occur in
early 2016, the Mission is concerned that closing of the OIG report’s recommendations will not
be possible until mid-2016, well beyond the one year window that we are required to address
recommendations. Nevertheless, the larger issue here that USAID/Indonesia would like to raise
is that it does not concur with the inference that the program’s sustainability is questionable. We
respectfully disagree with the report’s findings that the program was not addressing the political
obstacles that prevent the Anti-Corruption Commission (KPK) and BPK from paying for their
own training and public outreach and that the program did not have ways to measure
sustainability for many training, assessment, and public education and outreach activities.

The report offers no criteria, incorporates anecdotal information, and presents incorrect findings
to support its conclusions on sustainability.

      The OIG criticizes the program’s lack of a sustainability plan yet provides no criteria
       defining the key elements of such a plan and therefore the criteria the OIG used to reach
       its conclusions. Did the OIG use best practices from other agencies or the private sector
       to determine the appropriate criteria for assessing sustainability efforts within a USAID
       project? What are the specific elements that should be included in a sustainability plan?
       The report’s methodology section does not articulate any criteria that the OIG used in
       assessing program sustainability efforts. Lacking criteria, the OIG offers anecdotal and
       testimonial evidence as the basis for its conclusions.
      The OIG contends that the program did not address political obstacles that prevent KPK
       and BPK from paying for their own training and outreach. Are addressing political
       obstacles part of the criteria that sustainability plans should address? What are the
       specific political obstacles that OIG observed and how would the OIG expect USAID
       /Indonesia to address them?
      The OIG states that two other donors interviewed for the audit do not fund certain public
       education and outreach activities that the SIAP-1 program does. Is testimonial evidence
       from two sources the criteria upon which the OIG used to conclude that the SIAP-1
       program should not have funded these activities? Under auditing standards, testimonial
       evidence is considered the weakest form of evidence. In addition, more than just two
       donors are engaged in this type of cooperation. For example, Denmark’s development
       cooperation agency, Danida recently agreed to support another large-scale outreach
       effort for KPK, while the World Bank and the Germans have supported similar efforts in
       the past. Further, best practice in donor coordination would suggest that some donors
       may take on selected activities while others concentrate in other areas and the fact of a
       particular donor’s absence does not seem strong evidence that the activity should not be
       funded.
      The OIG criticizes the program’s static $650,000 cost share in light of the 29% increase
       in the program’s overall budget and warns that “this decreased overall share could
       weaken any potential link between cost share and sustainability.” This statement is not


                                                                                                17
                                                                                       Appendix II


       supported by data provided to the auditors. As of April 2014, SIAP- I had collected
       approximately $377,000 in cost share through its implementing partners. In addition,
       government beneficiaries and private partners contributed over $300,000 in the form of
       in-kind contributions. Accordingly, SIAP-1 expects to exceed its cost share target by the
       end of the program. The link between cost and sustainability is therefore strengthened by
       these noteworthy program accomplishments.

Despite the limitations inherent to the sustainability raised in the OIG report, USAID/Indonesia
intends to articulate a sustainability approach to guide the project’s remaining years and
institutionalize its key accomplishments. A senior MSI Technical Director was already planning
to conduct a sustainability review and draft a sustainability approach. A draft is complete and
has been shared with USAID/Indonesia. The sustainability approach considers several
components: the addition of a sustainability requirement in the grant application and review
process; an increased focus on Training of Trainers; semi-annual sustainability fora with
beneficiaries; additional training for NGO grantees; enhanced tracking of government cost
contributions; and increased focus on collecting additional cost share through the engagement of
private sponsors for public and educational events. In order to be relevant and effective, several
of these actions are being incorporated into the current annual work plan and will have been
carried out by August 2015. Others will continue into the final year of SIAP-1 activities to help
ensure that these investments are institutionalized in the beneficiary organizations as integral
parts of their reforms aimed at change and improvement.

Recommendation 4: We recommend that USAID/Indonesia report on sustainability in
remaining portfolio reviews of the Strengthening Integrity and Accountability Program 1.

Mission Response: USAID/Indonesia shares the OIG’s concern and recommendation that
sustainability be foremost on our mind if the challenges of more open and accountable
governance are to be overcome. Our periodic portfolio and quarterly financial reviews compare
progress against objectives and the after action notes continuously reference the higher level
results that activities such as SIAP-1 are expected to help achieve. Clearly these can only be
achieved if the reforms that we are supporting are and will in the future - such as more effective
use of audit and investigative tools- be sustained by demand from Indonesian citizens and
resources dedicated by its government. USAID/Indonesia has begun the process of engaging the
new government’s transition team to understand its priorities and see how best our programming,
including that of SIAP-1, continues its activities aimed at integrity and accountability. The
Mission’s most recent portfolio review identified the need to engage commissioners from the
Anti-Corruption Commission (KPK), one of SIAP-1’s key beneficiaries, on our contribution to
higher level results aimed at organizational growth and improvement. We see no reason why the
same conversation with the BKP commissioners, once the new members are appointed and in
place, cannot take place to ensure that our support remains relevant and consistent with its
strategic plan and recent international peer review findings and recommendations.

Recommendation 5: We recommend that USAID/Indonesia conduct a final evaluation, focusing
on sustainability of the Strengthening Integrity and Accountability Program 1.




                                                                                                18
                                                                                       Appendix II


Mission Response: Mission Management has approved a path-breaking Public International
Organization (PIO) Agreement with the Organization for Economic Cooperation and
Development (OECD) based in Paris to support a peer review evaluation of Indonesia’s efforts to
promote open and accountable governance. Most of the areas assisted by SIAP-1 are expected to
be included as part of the peer review, which will provide the Mission with an evaluation of the
impact and sustainability of our program efforts to improve government accountability. Work
should begin by the end of this fiscal year in which OECD, in close cooperation with the
Government of Indonesia, will apply the same rigor and standards expected of its members. The
aim is to identify actionable recommendations on how Indonesia, together with its development
partners, can institutionalize government accountability improvements. With a year and a half
left in the life of this activity, this larger review, funded by USAID/Indonesia, will inform
needed changes during the remaining months of SIAP-1 and the Mission’s signature effort on
accountability under its CDCS and new government taking office in October 2014. This OECD
review which is expected to be completed by October 2015, coupled with the actions the Mission
will take related to the OIG performance audit, will address fully the sustainability issues raised
in the OIG report and avoid final actions on this audit that extend beyond a year.

The final action target date for the combined recommendations No. 3, 4 and 5 would
be September 30, 2015




                                                                                                19
                                                                                                 Appendix III



                 Table 2. Indicator Results Versus Targets, 2011-2013 (audited)

                                                                    3-year       3-year           Variance
Indicator                                                                  8            9
                                                                    Target       Result           (Percent)

Outputs

Priority studies/assessments conducted to support KPK in
                                                                        12              9              (25)
order to improve its internal management

Training activities on the BPK fraud control system conducted
                                                                        15             26              73
with support from SIAP I

Government officials receiving USG-supported anti-corruption
                                                                       400          2,077              419
training

People affiliated with non-governmental organizations
                                                                       750          1,333              78
receiving USG-supported anti-corruption training

Laws or amendments to ensure credible elections drafted with
                                                                         7              6              (14)
USG technical assistance

Analyses and recommendations to support political finance
                                                                        16             15              (6)
reform developed with support by SIAP I

Intermediate Results

Recommendations to improve capacity of KPK adopted by
                                                                        30             23              (23)
leadership

BPK units implementing the Fraud Control System                         17              2              (88)

Reported allegations of fraud received by BPK inspectorate              34              2              (94)

People exposed to anti-corruption campaigns conducted by
                                                                     4 million     3.4 million         (15)
Government of Indonesia and NGOs supported by SIAP I

Percentage of niche anticorruption agencies’ staff who
improved their knowledge as a result of training supported by           75             75               0
       10
SIAP I

Complaints resolved with niche anticorruption agencies               4,879          3,723              (24)

Media news and articles which inform issues of the political
                                                                        60             435             625
party financing reform advocated with support by SIAP I
       11
Impact



8
  Three-year targets are cumulative except where noted otherwise.
9
  Three-year results are cumulative except where noted otherwise.
10
   Year 3 result and target. The audit did not obtain a 3-year cumulative target and result for this indicator.
11
   Targets for impact indicators were annual index scores. Results are not cumulative.

                                                                                                              20
                                                                                       Appendix III


                                    12
Corruption Perception Index score                               3.3           32            NA

National Integrity Index score                                  6.95           6.80         NA




12
  The Corruption Perception Index score was based on a scale of ten at the beginning of the program.
The score was converted to a scale of 100 in 2013.

                                                                                                 21
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           http://oig.usaid.gov
